A-l
APPENDIX A
State of New York
Court ofAppeals
Decided and Entered on the
twenty-fourth day of March, 2020
Present, Hon. Janet DiFiore, Chief Judge, presiding.
SSD8
Robert L. Schulz,
Appellant,
v.
Town Board of the Town of Queensbury et al.,
Respondents.

Appellant having appealed to the Court of Appeals
in the above title;
Upon the papers filed and due deliberation, it is
ORDERED, that the appeal is dismissed without
costs, by the Court sua sponte. upon the ground that
no substantial constitutional question is directly in­
volved.
/s/ John P. Asiello
John P. Asiello
Clerk of the Court

A-2
APPENDIX B
State of New York
Supreme Court, Appellate Division
Third Judicial Department
Decided and Entered: October 24, 2019

527707

ROBERT L. SCHULZ,
Appellant,
v
TOWN BOARD OF THE TOWN
OF QUEENSBURY et al.,

OPINION AND
ORDER

Respondents.
Calendar Date: September 3, 2019
Before: Egan Jr., J.P., Lynch, Clark, Mulvey and
Pritzker, JJ.

Robert L. Schulz, Queensbury, appellant pro se.
Miller, Mannix, Schachner & Hafner, Glens Falls
(Jacquelyn P. White of counsel), for respondents.

Mulvey, J.
Appeals (1) from a judgment of the Supreme Court
(Muller, J.), entered September 20, 2018 in Warren
County, which, among other things, granted defend­
ants’ cross motion to dismiss the amended complaint,
and (2) from an order of said court, entered February

A-3
26,2019 in Warren County, which, among other things,
upon reargument, adhered to its prior decision grant­
ing defendants’ cross motion to dismiss.
In 2013, the Town of Queensbury, Warren County
began considering the establishment of a sanitary
sewer district to serve a certain portion of the Town. In
September 2016, defendant Town Board of the Town of
Queensbury completed its review under the State En­
vironmental Quality Review Act (see ECL art 8 [here­
inafter SEQRA]), issued a negative declaration stating
that the proposed sewer district would have no signifi­
cant environmental impacts, and approved a resolu­
tion to establish the sewer district. Plaintiff, who did
not participate in the public hearing, attended a Town
Board meeting in October 2016 where he read aloud
and submitted to the Town Board a document he la­
beled “Petition for the Redress of Grievances Regard­
ing the Proposed [sewer district].” The Town Board did
not respond to this document. In November 2017, after
receiving approval from the State Comptroller (see
Town Law § 209-f), the Town Board adopted a final or­
der establishing the sewer district. On June 4, 2018,
plaintiff read and submitted to the Town Board a peti­
tion labeled the same as his October 2016 document.
On July 2,2018, the Town Board accepted a bid to com­
mence construction on the sewer project.
That same day, plaintiff commenced this action
against the Town Board and defendant John Strough,
the Town Supervisor, seeking declaratory and injunc­
tive relief, including a temporary restraining order.
Defendants cross-moved to dismiss the complaint.

A-4
Supreme Court, among other things, granted the cross
motion and dismissed the complaint on the bases that
plaintiff’s SEQRA claims were time-barred and his
constitutional claims failed to state a cause of action
(61 Misc 3d 1202[A] [Sup Ct, Warren County 2018]).
Plaintiff then moved to reargue and renew. Although
the court stated that it was denying his motion (62
Misc 3d 1225 [A] [Sup Ct, Warren County 2019]), we
view the decision as essentially granting reargument
but adhering to the court’s prior determination (see
Galway Co-Op.Com. LLC v Niagara Mohawk Power
Corp.. 171 AD3d 1283, 1284 [2019]; Flisch v Walters.
42 AD3d 682, 683 [2007]). Plaintiff appeals from the
judgment dismissing his complaint and from the order
upon reconsideration.
Plaintiff does not have standing to raise the SE­
QRA claims. “In land use matters especially, [the Court
of Appeals] ha[s] long imposed the limitation that the
plaintiff, for standing purposes, must show that [he or
she] would suffer direct harm, injury that is in some
way different from that of the public at large [and]
[t]his requirement applies whether the challenge to
governmental action is based on a SEQRA violation, or
other grounds” (Society of Plastics Indus, v Countv of
Suffolk. 77 NY2d 761, 774 [1991] [internal citations
omitted]; see Matter of Save the Pine Bush. Inc, v
Common Council of City of Albany. 13 NY3d 297, 304
[2009]; Matter of Clean Water Advocates of N.Y., Inc, v
New York State Dept, of Envtl. Conservation. 103
AD3d 1006, 1007 [2013], Iv denied 21 NY3d 862
[2013]). Plaintiff does not reside in the Town. Although

A-5
his homestead apparently straddles the Town line
such that 1.2 acres of his land is situated in the Town,
his property is located outside of - and approximately
15 miles away from - the sewer district. Moreover,
plaintiff’s status as a taxpayer, by itself, does not grant
him standing to challenge the establishment of the
sewer district (see Tilcon N.Y., Inc, v Town of New
Windsor. 172 AD3d 942, 944 [2019]; Matter of Kopald
v Supervisor & Town Bd. of Town of Highlands. 34
AD3d 810,810 [2006]). As plaintiff has not alleged that
the Town Board’s SEQRA determination and approval
of the sewer district created a direct harm to him that
is different from that of the public at large, he does not
have standing to challenge these actions (see Matter of
Clean Water Advocates of N.Y., Inc, v New York State
Dept, of Envtl. Conservation. 103 AD3d at 1007-1009).
Plaintiff’s SEQRA challenge is also time-barred.
Regardless of how a plaintiff may label or style his or
her claim, courts must look to the core of the underly­
ing claim and the relief sought and, if the claim could
have been properly addressed in the context of a CPLR
article 78 proceeding, a four-month statute of limita­
tions will apply (see Northern Elec. Power Co.. L.P. v
Hudson Riv.-Black Riv. Regulating Dist.. 122 AD3d
1185, 1187-1188 [2014]; Bango v Gouverneur Volun­
teer Rescue Squad. Inc.. 101 AD3d 1556, 1557 [2012]).
Thus, even though plaintiff couched his requested re­
lief in the form of a declaratory judgment action, his
allegations of SEQRA violations are subject to a fourmonth statute of limitations (see Matter of Young v
Board of Trustees ofVil. of Blasdell. 89 NY2d 846, 848

A-6
[1996]; Matter of Save the Pine Bush v City of Albany.
70 NY2d 193, 203 [1987]; Matter of Village of Wood­
bury v Seggos. 154AD3d 1256,1260 [2017]). Although
plaintiff asserts that the SEQRA violations arose, at
least in part, due to the Town Board providing know­
ingly false answers on the environmental assessment
form, the complaint does not contain a separate fraud
cause of action that would be governed by a longer stat­
ute of limitations; neither does plaintiff assert that he
was prevented from filing suit earlier due to the alleg­
edly false answers. Considering that the Town Board
completed its SEQRA review and issued a negative
declaration in September 2016 and gave final approval
to the sewer project in November 2017, plaintiff’s chal­
lenges thereto in his July 2018 complaint were un­
timely.
Supreme Court did not err in concluding that
plaintiff’s constitutional allegations failed to state a
cause of action. Plaintiff alleged that the Town Board
was constitutionally obligated to respond to his peti­
tions for redress of grievances. Both the State and
Federal Constitutions prohibit the government from
making any law that abridges the right of the people
“to petition the [g]overnment for a redress of griev­
ances” (US Const, First Amend; see NY Const, art I, § 9
[stating “(n)o law shall be passed abridging the rights
of the people ... to petition the government, or any de­
partment thereof”]). However, the Supreme Court of
the United States has stated that “[n]othing in the
First Amendment or in this Court’s case law interpret­
ing it suggests that the rights to speak, associate, and

A-7
petition require government policymakers to listen or
respond to individuals’ communications on public is­
sues” (Minnesota State Bd. for Community Colleges v
Knight. 465 US 271, 285 [1984]; see Smith v Arkansas
State Highway Empls.. Local 1315. 441 US 463, 465
[1979]; accord Knight First Amendment Inst, at Co­
lombia Univ. v Trump. 302 F Supp 3d 541, 576 [SD NY
2018], affid 928 F3d 226 [2d Cir 2019]). Stated other­
wise, the First Amendment does not “guarantee [ ] a cit­
izen’s right to receive a government response to or
official consideration of a petition for redress of griev­
ances” (We the People Found.. Inc, v United States. 485
F3d 140,141 [DC Cir 2007], certs denied 552 US 1102
[2008]).
Plaintiff attempts to distinguish between peti­
tions that address public policy - with plaintiff conced­
ing that the Supreme Court of the United States has
held that they are not entitled to a direct response versus petitions asserting that the government has vi­
olated laws or the constitution - with plaintiff arguing
that the petitioned government agency or official must
respond to them. However, the federal Court of Appeals
for the District of Columbia Circuit has already re­
jected that argument, noting that “[n]othing in the [rel­
evant and binding] Supreme Court opinions hints at a
limitation on their holdings to certain kinds of peti­
tions” (We the People Found.. Inc, v United States. 485
F3d at 144 [emphasis omitted]). Although some com­
mentators suggest that the Supreme Court failed to
consider important historical information and, based
on this information, the Petition Clause should be

A-8
interpreted to include a right to a response to or official
consideration of petitions (see e.g. James E. Pfander,
Sovereign Immunity and the Right to Petition: Toward
a First Amendment Right to Pursue Judicial Claims
Against the Government. 91 Nw U L Rev 899, 904-905
& 905 n 22 [1997]; Julie M. Spanbauer, The First
Amendment Right to Petition Government for a Re­
dress of Grievances: Cut From a Different Cloth. 21
Hastings Const LQ 15, 17-19 [1993]; Stephen A. Higginson, A Short History of the Right to Petition Gov­
ernment for the Redress of Grievances. 96 Yale LJ 142,
155 [1986]; compare Gary Lawson & Guy Seidman,
Downsizing the Right to Petition. 93 Nw U L Rev 739,
766 [1999]; Norman B. Smith, “Shall Make No Law
Abridging ...
An Analysis of the Neglected, but
Nearly Absolute. Right of Petition. 54 U Cin L Rev
1153, 1190-1191 [1986]), “we must follow the binding
Supreme Court precedent” interpreting the First
Amendment (We the People Found.. Inc, v United
States. 485 F3d at 144).
Despite the ability of New York courts to interpret
our State Constitution in a way that provides more ex­
pansive rights than similar provisions in the Federal
Constitution (see e.g. People v Scott. 79 NY2d 474,478
[1992]; People v P.J. Video. Inc.. 68 NY2d 296, 302-304
[19861. cert denied 479 US 1091 [19871: Sharrock v Dell
Buick-Cadillac. 45 NY2d 152, 159 [1978]), we see no
reason to do so here. Requiring a response to every pe­
tition, especially in this digital age in which petitions
can be copied and circulated with great speed and
ease, could create a crushing burden on government

A-9
agencies and officials and waylay them from the per­
formance of their duties (see Norman B. Smith, “Shall
Make No Law Abridging . . . An Analysis of the Ne­
glected. but Nearly Absolute. Right of Petition. 54 U
Cin L Rev at 1190-1191 [“with our present capacity for
multiplying documents, the business of government
could be halted if each paper produced in a massive
petition campaign is addressed”]). Rather, in our re­
publican form of government in which direct public
participation is limited, “disapproval of officials’ re­
sponsiveness ... is to be registered principally at the
polls” (Minnesota State Bd. for Community Colleges v
Knight. 465 US at 285). Because plaintiff requested a
declaration and Supreme Court did not grant one (see
CPLR 3001), we declare that defendants were not obli­
gated to respond to plaintiff’s petitions for redress of
grievances.
Egan Jr., J.R, Lynch, Clark and Pritzker, JJ., concur.
ORDERED that the judgment and order are mod­
ified, on the law, without costs, by declaring that de­
fendants were not obligated to respond to plaintiff’s
petitions for redress of grievances dated October 17,
2016 and June 4, 2018, and, as so modified, affirmed.
ENTER:
/s/ Robert D. Mayberger
Robert D. Mayberger
Clerk of the Court

A-10
APPENDIX C
STATE OF NEW YORK
SUPREME COURT COUNTY OF WARREN
ROBERT L. SCHULZ,
Plaintiff-Petitioner,
v.
TOWN BOARD OF THE TOWN
-OF QUEENSBURY, JOHN
STROUGH, SUPERVISOR,

DECISION AND
ORDER
Index No. 65513
RJI No.
56-1-2018-0322

Defendants-Respondents.
Robert L. Schulz, Queensbury, plaintiff-petitioner pro se.
Miller, Mannix, Schachner & Hafner, LLC, Glens Falls
(.Jacqueline P. White of counsel), for defendantsrespondents.
ROBERT J. MULLER, J.S.C.
Plaintiff-petitioner (hereinafter petitioner) com­
menced this action to challenge the establishment of
a Sanitary Sewer District in the vicinity of Carey Road
in the Town of Queensbury, Warren County (herein­
after the Carey Road District). Petitioner sought a
declaratory judgment that defendants-respondents
(hereinafter respondents) violated the State Environ­
mental Quality Review Act (see ECL art 8 [hereinafter
SEQRA]) and, further, violated his rights under the
First Amendment of the United States Constitution by
failing to respond to two separate petitions for redress

A-ll
of grievances presented to respondent Town Board of
the Town of Queensbury (hereinafter the Town Board).
The action was dismissed by Decision and Judg­
ment dated September 19,2018, with the Court finding
that petitioner’s SEQRA claims should have been
brought in the context of a CPLR article 78 proceeding
and, as such, were time-barred (61 Misc 3d 1201 [A],
2018 NY Slip Op 51328 [U], *2 [Sup Ct, Warren County
2018]). The Court further found that petitioner was not
entitled to a response to his petitions for redress of
grievances under the First Amendment and his con­
stitutional claims therefore failed to state a cause of
action (id. at *3). Presently before the Court is (1) peti­
tioner’s motion for leave to reargue or, alternatively, for
leave to renew relative to this Decision and Judgment;
and (2) petitioner’s motion by Order to Show Cause
for a preliminary injunction. The motions will be ad­
dressed ad seriatim.
Motion for Leave to Reargue/Renew
Turning first to that aspect of the motion which
seeks leave to reargue, to succeed on such a motion pe­
titioner must demonstrate that the Court “overlooked
significant facts or misapplied the law in its original
decision” (Matter of Town of Poestenkill v New York
State Dept. ofEnvtl. Conservation, 229 A.D.2d 650, 650
[1996]; see CPLR 222 l[d]; Greene Major Holdings, LLC
v Trailside at Hunter, LLC, 148 AD3d 1317, 1318-1319
[2017]; Matter of Ellsworth v Town of Malta, 16 AD3d
948, 949 [2005]).

A-12
Here, petitioner contends that the Court over­
looked his claims that the short environmental assess­
ment form (hereinafter EAF) contained fraudulent
responses and, in so doing, erroneously found that his
SEQRA claims should have been brought in the con­
text of a CPLR article 78 proceeding. More specifically,
petitioner contends as follows:
“Under the facts and circumstances of this
case, which has more to do with the filing of a
false instrument than with identifying and
thoroughly analyzing relevant areas of envi­
ronmental concern, a declaratory judgment
action under CPLR 3001 to nullify the EAF
and [the Town Board’s] resolutions establish­
ing the District was the proper context for [pe­
titioner’s] action, rather than a proceeding
under CPLR [ajrticle 78.”
This contention is without merit. In his amended
complaint-petition, petitioner alleges that respondents
fraudulently responded to question 13 (b) of part 1 of
the EAF by indicating that the District would not
physically alter or encroach into any existing wet­
land or water body. He further alleges that respond­
ents fraudulently responded to question 7 (b) of part
2 of the EAF by indicating that the District would
not impact any existing wastewater treatment utili­
ties. The wastewater generated in the Town of Queensbury (hereinafter the Town) is treated by the City of
Glens Falls (hereinafter the City) at its Wastewater
Treatment Plant. According to petitioner, the City’s
Wastewater Treatment Plant “already frequently by­
pass [es] large volumes of existing domestic sewage and

A-13
industrial wastewater to the Hudson River,” and the
problem “will only increase as sewer districts such as
[the] Carey Road District . . . are developed for dis­
charge of hundreds of thousands of additional gallons
of domestic sewage and industrial wastewater to the
[City’s] Wastewater Treatment Plant.”
Notably, petitioner does not allege that respond­
ents lied or knowingly failed to disclose relevant infor­
mation in the EAF. The record in fact suggests quite
the opposite. Respondents were aware of the problem
and took steps to remedy it, as the result of which they
ultimately determined that the City’s Wastewater
Treatment Plant would be able to “accommodate the
increased flow . . . resulting] from the [Carey Road]
District.” Their responses to question 13 (b) of part 1 of
the EAF and question 7 (b) of part 2 of the EAF reflect
this determination. In sum, notwithstanding peti­
tioner’s use of the word “fraudulent,” his allegations
amount to nothing more than a disagreement with re­
spondents as to the potential impact of the Carey Road
District on the environment.
Briefly, even if the Court had erred in finding that
petitioner’s SEQRA claims were barred by the statute
of limitations, they would nonetheless be subject to dis­
missal because petitioner is without standing to assert
them. “[T]he conferral of standing to challenge govern­
mental actions involving land use, on SEQRA grounds
or otherwise, requires a showing that the challenger
will suffer direct harm, that is, injury which is in
some way different from that of the public at large”
(.Matter of Schulz v New York State Dept, of Envtl.

A-14
Conservation, 186 AD2d 941, 942 [1992], Iv denied 81
NY2d 707 [1993]; see Matter of Save the Pine Bush, Inc.
v. Common Council of City of Albany, 13 NY3d 297,
304-306 [2009]; Society of Plastics Indus, v County of
Suffolk, 77 NY2d 761, 774-779 [1991]; Matter of O’Brien
v New York State Commr. ofEduc., 112 AD3d 188, 194
[2013]). Here, petitioner does not and cannot claim an
injury that is in some way different from that of the
public at large. He does not own property within the
Carey Road District nor does he reside within the Town.1
Petitioner next contends that the Court misap­
plied the law in dismissing his constitutional claims.
Specifically, petitioner contends that the cases relied
upon by the Court in dismissing the claims are inap­
posite because his petitions for redress of grievances
“were not garden variety ‘speech petitions’ merely
seeking to influence government ‘policy making’ but
were “proper [petitions . . . calling out and seeking to
remedy [respondents’] oppressive violations of existing
law.”
This contention is without merit as well. Nowhere
does petitioner cite - nor was the Court able to locate
- any case law drawing a distinction between petitions
for redress of grievances which seek to shape policy
and those which allege violations of existing law. In
fact, in We the People Found., Inc. v United States (485
F 3d 140 [DC Cir 2007]) - which dealt with a petition
1 Petitioner resides in the Town of Fort Ann, Washington
County. While he owns approximately one acre of vacant land in
the Town, this land is located 15 miles from the Carey Road District.

A-15
for redress of grievances relative to the government’s
alleged “ Violation of the taxing clauses of the Consti­
tution’ and Violation of the war powers, money and pri­
vacy clauses of the Constitution’” {id. at 141 [internal
quotation marks omitted]) - the District of Columbia
Court of Appeals expressly found that the First
Amendment does not encompass “a citizen’s right to
receive a government response to or official considera­
tion of a petition for redress of grievances” {id. at 141).
While the Court agrees with petitioner’s spirited
arguments emphasizing the citizenry’s fundamental
right to petition the government, with soundings as
deep as Federalist Papers No. 18, adherence to such
truths is not inconsistent with a majority view of
numerous tribunals as have weighed the issue and
repeatedly concluded - as does this Court - that
“[n]othing in the First Amendment or in [the] case law
interpreting it suggests that the rights to speak, asso­
ciate, and petition require government policymakers to
listen or respond to individuals’ communications on
public issues” {Minnesota State Bd. for Community
Colls, v Knight, 465 US 271, 285 [1984]; see Knight
First Amendment Inst, at Columbia Univ. v Trump, 302
F Supp 3d 541, 576 [SD NY 2018]).
Finally, petitioner contends that the Court misap­
plied the law in stating as follows:
“Insofar as petitioner claims that the bid for
construction approved by the Town Board on
July 2, 2018 was based upon specifications
and drawings which did not comport with the
[Map, Plan and Report (MPR) prepared by

A-16
Chazen Companies], . . . such claims [are]
raised for the first time in his reply papers
and, as such, [are] not properly before the
Court” (2018 NY Slip Op 51328 [U], at *4 n 2).
Specifically, petitioner contends that “the subject
of the [MPR] was first raised ... by [respondents] in
support of [their] motion [to dismiss]” and he was
therefore “within his rights to reply as he did.”
This contention is unavailing. The MPR was one of
many documents mentioned by respondents in their
discussion of the procedure followed by the Town in es­
tablishing the Carey Road District. Respondents made
no arguments relative to the MPR. More significantly,
however, the MPR was filed with the Town Clerk for
public inspection in August 2016 and was available to
petitioner for review well before he commenced this ac­
tion. As such, any allegations that the bid for construc­
tion approved by the Town Board did not comport with
the MPR could and should have been included in his
initial pleadings. Alternatively, petitioner could have
made a motion to amend the pleadings so as to include
these allegations (see CPLR 3025).
Based upon the foregoing, the aspect of peti­
tioner’s motion seeking leave to reargue is denied.
With respect to the aspect of the motion which
seeks leave to renew, to succeed on such a motion peti­
tioner must “provide new facts that would change the
prior determination as well as a justifiable excuse for
not providing such facts earlier” (Hurrell-Harring v.

A-17
State of New York, 112 AD3d 1217, 1218 [2013]; see
CPLR 2221 [e]).
Here, petitioner has submitted (1) a document en­
titled “Sewage Discharge Notifications,” apparently
printed from the website maintained by the Depart­
ment of Environmental Conservation; and (2) an un­
dated email to him including what appears to be an
October 2, 2018 article entitled “Heavy rains cause
combined sewer overflows in Glens Falls, Ticonderoga.”
Turning first to the Sewer Discharge Notifications
document, petitioner contends that it includes a list of
dates in 2015 and 2016 when untreated sewage by­
passed the City’s Wastewater Treatment Plant as a re­
sult of heavy rain and was discharged into the Hudson
River and, as such, provides new facts. Petitioner fur­
ther contends that he has a justifiable excuse for not
providing the document earlier, namely that “[g]iven
the common knowledge [relative to the bypasses, he]
did not believe it was necessary to add . . . the infor­
mation.” He later realized it was necessary, however,
when “[t]he Court . . . overlooked . . . the fact of its
seriousness.”
These contentions are without merit. The Sewer
Discharge Notifications document does not change the
Court’s determination. Indeed, notwithstanding the
information contained therein, petitioner’s SEQRA
claims are still time-barred and his constitutional
claims still fail to state a cause of action. Further,
petitioner’s belief that it was not necessary to include
the document in opposition to respondents’ motion to

A-18
dismiss does not constitute a justifiable excuse for his
failure to do so. “[A] motion to renew is ‘not a second
chance to remedy inadequacies that occurred in failing
to exercise due diligence in the first instance’” (Howard
v Stanger, 122 AD3d 1121, 1123 [2014], Iv dismissed
24 NY3d 1210 [2015], quoting Onewest Bank, FSB v
Slowek, 115 AD3d 1083, 1083 [2014] [internal quota­
tion marks and citation omitted]).
Turning now to the October 2, 2018 article, peti­
tioner contends that it provides new facts because it
demonstrates that the bypasses continue to occur not­
withstanding the improvements made to the City’s
Wastewater Treatment Plant. He further contends
that he has a justifiable excuse for not providing the
article earlier, namely that it was not published until
after issuance of the Decision and Judgment.
While petitioner perhaps has a justifiable excuse
for not providing the article earlier, the article - much
like the Sewer Discharge Notifications document does not change the Court’s determination. It must
also be noted that the article has questionable value,
as it is entirely unclear where it was published.
Based upon the foregoing, the aspect of peti­
tioner’s motion seeking leave to renew is also denied.
Motion for Preliminary Injunction
To the extent that petitioner’s motion for leave to
reargue or, alternatively, for leave to renew is denied,

A-19
his motion for a preliminary injunction must also be
denied.
Therefore, having considered the Affidavit of Rob­
ert L. Schulz, sworn to October 9, 2018, submitted in
support of motion for leave to reargue; Affidavit of
Robert L. Schulz with exhibits attached thereto, dated
October 9, 2018, submitted in support of motion for
leave to renew;2 Memorandum of Law of Robert L.
Schulz, dated October 9, 2018, submitted in support of
motion for leave to reargue/renew; Affidavit of Robert
L. Schulz, sworn to October 9, 2018, submitted in sup­
port of motion for preliminary injunction; Brief of
Robert L. Schulz, dated October 9, 2018, submitted in
support of motion for preliminary injunction; Memo­
randum of Law of Jacquelyn R White, Esq., dated Oc­
tober 18, 2018, submitted in opposition to motion for
leave to reargue/renew and motion for preliminary in­
junction; Affidavit of Christopher Harrington, sworn to
October 18,2018, submitted in opposition to motion for
leave to reargue/renew and motion for preliminary in­
junction; and Affidavit of Robert L. Schulz, sworn to
October 23, 2018, submitted in further support of mo­
tion for leave to reargue/renew and motion for prelim­
inary injunction; Memorandum of Law of Robert L.
Schulz, dated October 9, 2018, submitted in further
support of motion for leave to reargue/renew and mo­
tion for preliminary injunction;3 and correspondence of
2 The Court notes that this affidavit was not sworn to before
a Notary Public nor was it signed.
3 It appears that this Memorandum of Law was erroneously
dated.

A-20
Robert L. Schulz dated February 16, 2019, submitted
in further support of motion for leave to reargue/renew
and motion for preliminary injunction, and oral argu­
ment having been heard on February 15, 2019 with
petitioner Robert L. Schulz appearing pro se and
Jacquelyn R White, Esq. appearing on behalf of re­
spondents, it is hereby
ORDERED that petitioner’s motion for leave to
reargue or, alternatively, for leave to renew is denied;
and it is further
ORDERED that petitioner’s motion for a prelim­
inary injunction is denied; and it is further
ORDERED that any relief not specifically ad­
dressed has nonetheless been considered and is ex­
pressly denied.
The original of this Decision and Order has been
filed by the Court together with the Notice of Motion
for Leave to Reargue and Renew dated October 9,2018
and the submissions enumerated above. Counsel for
respondents is hereby directed to obtain a filed copy of
the Decision and Order for service with notice of entry
in accordance with CPLR 5513.
Dated: February 25, 2019
Lake George, New York
/s/ Robert J. Muller___________
ROBERT J. MULLER, J.S.C.
ENTER:

A-21
APPENDIX D
STATE OF NEW YORK
SUPREME COURT COUNTY OF WARREN
ROBERT L. SCHULZ,
Plaintiff-Petitioner,
v.
TOWN BOARD OF THE TOWN
OF QUEENSBURY, JOHN
STROUGH, SUPERVISOR,

DECISION AND
JUDGMENT
Index No. 65512
RE No.
56-1-2018-0322

Defendants-Respondents.
Robert L. Schulz, Queensbury, plaintiff-petitioner pro se.
Miller, Mannix, Schachner & Hafner, LLC, Glens Falls
CJacqueline P. White of counsel), for defendantsrespondents.
The City of Glens Falls (hereinafter the City) and
Town of Queensbury (hereinafter the Town) entered
into a Wastewater Treatment Agreement on April 1,
2002, which Agreement provides for the treatment of
the Town’s wastewater at the City’s Wastewater Treat­
ment Plant.1 In March 2013, the Town began discuss­
ing the establishment of a Sanitary Sewer District in
the vicinity of Carey Road. The Town then entered into
the “Carey Road Sewer District Sewer Improvement
Agreement” with the City in March 2016 to implement
certain improvements to existing sewer mains so as to
1 The Court notes that the Agreement was subsequently
amended on August 1, 2012 and November 1, 2012.

A-22
accommodate the flow increases expected from the
Town’s development of this new District. The Town
thereafter proceeded with formation of the District.
In accordance with Town Law article 12-a, the
Town commissioned engineering firm Chazen Compa­
nies (hereinafter Chazen) to prepare a Map, Plan and
Report (MPR) relative to the project (see Town Law
§ 209-b, 209-c). The MPR was finalized in July 2016
and filed with the Town Clerk for public inspection on
August 12,2016 (see Town Law § 209-c). Defendant-re­
spondent Town Board of the Town of Queensbury
(hereinafter the Town Board) met on August 15, 2016
and scheduled a public hearing on the establishment
of the District for September 12, 2016, thereafter pub­
lishing notice of the same (see Town Law § 209-d). The
public hearing was then held as scheduled and the
Town Board adopted a Resolution establishing the Dis­
trict, subject to a permissible referendum (see Town
Law § 209-e). Notice of adoption of the Resolution was
published and no petition for referendum was filed.
In accordance with the State Environmental Qual­
ity Review Act (see ECL art 8 [hereinafter SEQRA]),
the Town Board deemed the project to be an Unlisted
action and, on January 11, 2016, adopted a Resolution
indicating that it planned to serve as Lead Agency for
SEQRA review purposes (see 6 NYCRR 617.6 [a] [1];
[b] [2] [1]). Chazen then prepared part one of the short
environmental assessment form (FAIT) and it was pro­
vided - together with the Lead Agency Notice - to all
potentially involved agencies, namely the Department
of Environmental Conservation (hereinafter DEC), the

A-23
Warren County Department of Public Works and the
State Historic Preservation Office (see 6 NYCRR
617.6 [b] [3] [1]). The EAF included detailed information
regarding the project, including the fact that the Dis­
trict would discharge all wastewater to the City’s
Wastewater Treatment Plant.
The DEC responded by letter dated April 12,2016,
consenting to the Town Board acting as Lead Agency
and providing comments relative to, inter alia, the po­
tential need for DEC permitting of construction activ­
ities on the project. Notably, the DEC did not express
any concerns about the District discharging all
wastewater to the City’s Wastewater Treatment Plant.
Neither the Warren County Department of Public
Works nor the State Historic Preservation Office re­
sponded and, as such, were deemed to consent to the
Town Board acting as Lead Agency.
At the conclusion of the public hearing on Septem­
ber 12, 2016, the Town Board - all of whom had heard
a presentation by Chazen and been provided with a
copy of part one of the EAF - completed its SEQRA
review. Specifically, the Town Board addressed each
question in part two of the EAF and then adopted a
negative declaration determining that the project will
not result in any significant adverse environmental
impacts (see 6 NYCRR 617.7[a][2]). The Town Board
further completed part three of the EAF. including a
written explanation for the negative declaration. This
SEQRA review was completed prior to the adoption of
the Resolution establishing the District.

A-24
On December 22,2016, the Town submitted its ap­
plication for approval of the District to the State Comp­
troller (see Town Law § 209-f), which then granted
approval on November 10, 2017. On November 20,
2017, the Town Board adopted the Final Order es­
tablishing the District. The Town Board then
adopted a Resolution on January 22, 2018 authoriz­
ing the issuance of up to $1,919,949.00 in serial bonds
and bond anticipation notes to pay the cost of acquisi­
tion, construction and installation of the District im­
provements. On March 1, 2018, the Town closed on
$325,000.00 of the authorized financing and, on July 2,
2018, the Town Board approved a bid for construction
of the project submitted by Turner Underground In­
stallations (hereinafter Turner).
On July 2, 2018, plaintiff-petitioner (hereinafter
petitioner) commenced this action for a declaratory
judgment against the Town Board and defendantrespondent John Strough, the Town Supervisor. Peti­
tioner claims that defendants-respondents (hereinaf­
ter respondents) violated SEQRA and, further, violated
his rights under the First Amendment of the United
States Constitution by failing to respond to two sepa­
rate Petition for Redress of Grievances, one presented
to the Town Board at its meetings on October 17, 2016
and another at its meeting on June 4, 2018. Presently
before the Court is (1) petitioner’s motion by Order to
Show Cause for a preliminary injunction prohibiting
respondents from executing a contract with Turner
relative to construction of the project and issuing
any bonds or bond anticipation notes to fund the

A-25
construction; and (2) respondents’ pre-answer cross
motion to dismiss the action.
Turning first to the cross motion, respondents con­
tend that petitioner’s claims relative to SEQRA must
be dismissed as time-barred (see CPLR 3211[5]).
It is by now well established that - regardless of
the form in which a petitioner chooses to couch his or
her claims - any claims that a municipality has failed
to follow SEQRA are maintainable only in the context
of a CPLR article 78 proceeding, which must be com­
menced within the applicable four-month statute of
limitations (see CPLR 217 [1]; Matter of Save the Pine
Bush v City ofAlbany, 70 NY2d 193,203 [1987]; Matter
of Village of Woodbury v Seggos, 154 AD3d 1256, 1260
[2017]). To that end, “an agency’s action is final for stat­
ute of limitations purposes when the decisionmaker ar­
rives at a definitive position on the issue that inflicts
an actual, concrete injury” (Matter of Eadie v Town Bd.
of Town of N. Greenbush, 22 AD3d 1025, 1027 [2005],
affd 7 NY3d 306 [2006] [internal quotation marks and
citations omitted]).
Here, while petitioner commenced a declaratory
judgment action, his claims relative to SEQRA should
have been brought in the context of a CPLR article 78
proceeding (Matter of Save the Pine Bush v City ofAl­
bany, 70 NY2d at 203; Matter of Village of Woodbury v
Seggos, 154 AD3d at 1260). Insofar as the deadline for
such proceeding is concerned, the Town Board com­
pleted its SEQRA review and adopted a Resolution es­
tablishing the District on September 12, 2016. The

A-26
Court finds that the adoption of this Resolution consti­
tuted a definitive position on the issue inflicting an ac­
tual, concrete injury. The proceeding therefore had to
be commenced on or before January 12, 2017. To the
extent that the instant action was not commenced un­
til July 2,2018, the Court finds that petitioner’s claims
relative to SEQRA are time-barred (see CPLR 217[1];
Matter of Save the Pine Bush v City ofAlbany, 70 NY2d
at 203; Matter of Village of Woodbury v Seggos, 154
AD3d at 1260).
Briefly, it must also be noted that even if the Court
chose to use November 20, 2017 - when the Final Or­
der establishing the District was adopted as the date
upon which the Town Board’s action became final for
statute of limitations purposes, petitioner’s claims rel­
ative to SEQRA still would be time-barred.
Respondents next contend that petitioner’s re­
maining constitutional claims fail to state a cause of
action (see CPLR 3211 [7]).
“On a motion to dismiss for failure to state a cause
of action, [the Court] must ‘afford the pleadings a lib­
eral construction, accept the facts alleged therein as
true, accord [petitioner] the benefit of every possible
inference and determine whether the facts alleged fit
within any cognizable legal theory’ ” (Nelson v Capital
Cardiology Assoc., PC., 97 AD3d 1072, 1073 [2012],
quoting Matter of Upstate Land & Props., LLC v Town
of Bethel, 74 AD3d 1450,1452 [2010]).
The First Amendment of the United States Con­
stitution states that “Congress shall make no law

A-27
respecting an establishment of religion, or prohibiting
the free exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people peace­
ably to assemble, and to petition the government for a
redress of grievances.” With that said, “[njothing in the
First Amendment or in [the] case law interpreting it
suggests that the rights to speak, associate, and peti­
tion require government policymakers to listen or re­
spond to individuals’ communications on public issues”
CMinnesota State Bd. for Community Colls, v Knight,
465 US 271, 285 [1984]; see Knight First Amendment
Inst, at Columbia Uniu. u Trump, 302 F Supp 3d 541,
576 [SD NY 2018]). Indeed, “‘[a] person’s right to speak
is not infringed when government simply ignores that
person while listening to others,’ or when the govern­
ment ‘amplifies’ the voice of one speaker over those of
others” (Knight First Amendment Inst, at Columbia
Univ. v Trump, 302 F Supp 3d at 576, quoting Minne­
sota State Bd. for Community Colls, u Knight, 465 US
at 285). It is “when the government goes beyond merely
amplifying certain speakers’ voices and not engaging
with others, and actively restricts ‘the right of an indi­
vidual to speak freely [and] to advocate ideas,’ [that] it
treads into territory proscribed by the First Amend­
ment” (Knight First Amendment Inst, at Columbia
Univ. v Trump, 302 F Supp 3d at 576, quoting Smith v
Arkansas State Highway Employees, Local 1315, 441
US 463, 464 [1979]; see Minnesota State Bd. for Com­
munity Colls, v Knight, 465 US at 286).
Here, petitioner provided written comments to the
Town Board at its meetings on October 17, 2016 and

A-28
June 4, 2018, respectively, which comments he labeled
“Petition[s] for Redress of Grievances Regarding the
Proposed Carey Road Sanitary Sewer District.” While
petitioner contends that his First Amendment rights
were violated because the Town Board failed to re­
spond to the comments in writing, the Court is not per­
suaded. The comments were accepted by the Town
Board and even read into the record at the meetings.
Under these circumstances, it certainly cannot he said
that the Town Board actively restricted petitioner’s
right to speak freely and to advocate his ideas. Even
affording the pleadings a liberal construction and ac­
cepting the facts alleged as true, the Court nonetheless
finds that petitioner has failed to state a claim for vio­
lation of his rights under the First Amendment of the
United States Constitution.
Based upon the foregoing, respondents’ cross mo­
tion is granted in its entirety and the action dismissed.
Petitioner’s motion for a preliminary injunction is
denied as moot.2

2 Insofar as petitioner claims that the hid for construction
approved by the Town Board on July 2,2018 was based upon spec­
ifications and drawings which did not comport with the MPR, the
Court notes that such claims were raised for the first time in his
reply papers and, as such, not properly before the Court (see
Kurbatsky v Inti. Conference of Funeral Serv. Examining Bds.,
162 AD3d 1379, 1380 n 1 [2018]; Matter of Jay’s Distribs., Inc. v
Boone, 148 AD3d 1237, 1241 [2017], Iv denied 29 NY3d 918
[2017]; Matter of Rosenfelder [Community First Holdings, Inc. Commissioner of Labor], 137 AD3d 1438, 1440 [2016]).

A-29
The parties’ remaining contentions, to the extent
not expressly addressed herein, have been considered
and are either academic in light of this decision or
without merit.
Therefore, having considered the Brief of Robert L.
Schulz, dated July 3, 2018, submitted in support of
the motion; Affidavit of Robert L. Schulz with exhibits
attached thereto, sworn to July 3, 2018, submitted in
support of the motion; Affirmation of Jacquelyn R
White, Esq. with exhibit attached thereto, sworn to
July 16,2018, submitted in support of the cross motion
and in opposition to the motion; Affidavit of Christo­
pher Harrington, Jr. with exhibits attached thereto,
sworn to July 13, 2018, submitted in support of the
cross motion and in opposition to the motion; Memo­
randum of Law of Jacquelyn P. White, Esq., dated July
16, 2018, submitted in support of the cross motion and
in opposition to the motion; Affidavit of Robert L.
Schulz with exhibits attached thereto, sworn to July
19, 2018, submitted in opposition to the cross motion
and in further support of the motion; and Brief of
Robert L. Schulz, dated July 19, 2018, submitted in op­
position to the cross motion and in further support of
the motion,3 it is hereby

3 The Court notes that petitioner submitted correspondence
dated August 20, 2018 in further support of his motion. This cor­
respondence was not considered, however, as it was submitted ap­
proximately one month after the return date.

A-30
ORDERED AND ADJUDGED that respond­
ents’ cross motion is granted in its entirety and the ac­
tion dismissed; and it is further
ORDERED AND ADJUDGED that petitioner’s
motion for a preliminary injunction is denied as moot.
The original of this Decision and Judgment has
been filed by the Court together with the Notice of
Cross Motion dated July 16, 2018 and the submissions
enumerated above. Counsel for respondents is hereby
directed to obtain a filed copy of the Decision and Judg­
ment for service with notice of entry in accordance
with CPLR 5513.
Dated: September 19, 2018
Lake George, New York
/s/ Robert J. Muller___________
ROBERT J. MULLER, J.S.C.
ENTER:

A-31
APPENDIX E
State of New York
Court ofAppeals
Decided and Entered on the
tenth day of September, 2020
Present, Hon. Janet DiFiore, Chief Judge, presiding.
Mo. No. 2020-319
Robert L. Schulz,
Appellant,
v.
Town Board of the Town of Queensbury et al.,
Respondents.
Appellant having moved for reconsideration of
this Court’s March 24, 2020 dismissal order and for
leave to appeal to the Court of Appeals in the above
cause;
Upon the papers filed and due deliberation, it is
ORDERED, that the motion for reconsideration is
denied; and it is further
ORDERED, that the motion for leave to appeal is
denied.
/s/ John P. Asiello
John P. Asiello
Clerk of the Court

A-32
APPENDIX F
Short Environmental Assessment Form
Part 1 - Project Information
Instructions for Completing
Part 1 - Project Information. The applicant or project
sponsor is responsible for the completion of Part 1. Re­
sponses become part of the application for approval or
funding, are subject to public review, and may be sub­
ject to further verification. Complete Part 1 based on
information currently available. If additional research
or investigation would be needed to fully respond to
any item, please answer as thoroughly as possible
based on current information.
Complete all items in Part 1. You may also provide
any additional information which you believe will be
needed by or useful to the lead agency; attach addi­
tional pages as necessary to supplement any item.
Part 1 - Project and Sponsor Information
Name of Action or Project:
Town of Queensbury Carey Road Sewer District For­
mation and Construction
Project Location (describe, and attach a location map):
Proposed Sewer District is located in the southcentral portion of the Town of Queensbury, Warren
County, NY.

A-33
Brief Description of Proposed Action:
Proposed new Carey Road Sewer District which in­
cludes approximately 47 tax parcels which total
245.27+/- non-contiguous acres along Corinth Road
(CR 28), Carey Road, Silver Circle, Big Bay Road, and
Big Boom Road in the south-central portion of the
Town of Queensbury. Following formation of the Dis­
trict, the project includes construction of low pressure
sewer forcemains. manholes and services. Please refer
to Figure 1 for the proposed Carey Road Sewer Dis­
trict area.
Name of Applicant or Sponsor: Telephone:
515-761-8200
Town of Queensbury (John
E-Mail:
Strough, Town Supervisor)
johnsqueensbury.net
Address:
742 Bay Road
City/PO:

State:

Zip Code:

Queensbury

NY

12804

1. Does the proposed action only
involve the legislative adoption of a
plan, local law, ordinance, adminis­
trative rule, or regulation?
If Yes, attach a narrative descrip­
tion of the intent of the proposed ac­
tion
and
the
environmental
resources that may be affected in
the municipality and proceed to Part
2. If no, continue to question 2.

NO

YES

0

□

A-34
2. Does the proposed action require a NO
permit, approval or funding from any
other governmental Agency? If Yes, list □
agency(s) name and permit or approval:

YES
0

NYSDEC approval of public sewer plans,
NYSDEC GP-0-15-002, Warren County
Dept of Public Works Highway Work Per­
mit
3.a. Total acreage of the site of the
proposed action?
b. Total acreage to be physically
disturbed?
c. Total acreage (project site and
any
contiguous
properties)
owned or controlled by the appli­
cant or project sponsor?

245.27 acres
3+/- acres
0 acres

4. Check all land uses that occur on, adjoining and
near the proposed action.
0 Urban □ Rural (non-agriculture) 0 Industrial
0 Commercial 0 Residential (suburban)
0 Forest □ Agriculture 0 Aquatic □ Parkland
0 Other (specify): medical office, vacant
5.

Is the proposed action,
a. A permitted use under the
zoning regulations?
b. Consistent with the adopted
comprehensive plan?

NO

YES

N/A

□
□

□
□

0

6. Is the proposed action consistent NO
with the predominant character of the
□
existing built or natural landscape?

0
YES
0

A-35
7. Is the site of the proposed action lo­ NO
cated in, or does it adjoin, a state listed
Critical Environmental Area? If Yes, 0
identify:__________________________

YES

8. a. Will the proposed action result in NO
a substantial increase in traffic
0
above present levels?

YES

□

□

b. Are public transportation service(s)
available at or near the site of the
proposed action?

□

0

c. Are any pedestrian accommoda­
tions or bicycle routes available on
or near site of the proposed action?

□

0

9. Does the proposed action meet or NO
exceed the state energy code require­
□
ments?
NA

YES

□

If the proposed action will exceed re­
quirements, describe design features
and technologies:__________________
10. Will the proposed action connect to NO
an existing public/private water supply?
NA
If No, describe method for providing
potable water:___________________

□

YES

□

A-36
11. Will the proposed action connect to NO
existing wastewater utilities? (City of
□
Glens Falls WWTP)

YES
0

If No, describe method for providing
wastewater treatment:____________
12. a. Does the site contain a structure NO
that is listed on either the State or
National Register of Historic 0
Places?
b. Is the proposed action located in
an archeological sensitive area?
Refer to Figure 2 and Endnote 1.

□

YES

□
0

Project information will be sub­
mitted to NYS Office of Parks,
Recreation & Historic Preserva­
tion for review.
13. a. Does any portion of the site of the NO
proposed action, or lands adjoining
the proposed action, contain wet­ □
lands or other waterbodies regu­
lated by a federal, state or local
agency? Refer to Figures 3 and 4.
b. Would the proposed action physi­ 0
cally alter, or encroach into, any
existing wetland or waterbody?
If Yes, identify the wetland or waterbody
and extent of alterations in square feet
or acres:__________________________

YES
0

□

A-37
14. Identify the typical habitat types that occur on,
or are likely to be found on the project site. Check all
that apply:
□ Shoreline 0 Forest □ Agricultural/grasslands
0 Early mid-successional 0 Wetland
0 Urban 0 Suburban
15. Does the site of the proposed action NO
contain any species of animal, or associ­
ated habitats, listed by the State or □
Federal government as threatened or
endangered? Refer to Figure 3 and Endnote 1.

YES

16. Is the project site located in the NO
100 year flood plain? (per FEMA FIRM
0
Panels 360879 0025B & 0028B)

YES

17. Will tile proposed action create NO
storm water discharge, either from point
0
or non-point sources? If Yes,

YES

a. Will storm water discharges flow to
adjacent properties? □ NO □ YES
b. Will storm water discharges be di­
rected to established conveyance
systems (runoff and storm drains)?
If Yes, briefly describe:

□ NO □ YES

0

□
□

A-38
18. Does the proposed action include NO
construction or other activities that re­
sult in the impoundment of water or 0
other liquids (e.g. retention pond, waste
lagoon, dam)?

YES

□

If Yes, explain purpose and size:______

19. Has the site of the proposed action NO
or an adjoining property been the loca­
tion of an active or closed solid waste 0
management facility?

YES

□

If Yes, describe:___________________

20. Has the site of the proposed action NO
or an adjoining property been the subject
of remediation (ongoing or completed) 0
for hazardous waste?

YES

□

If Yes, describe:___________________

I AFFIRM THAT THE INFORMATION PRO­
VIDED ABOVE IS TRUE AND ACCURATE TO
THE BEST OF MY KNOWLEDGE
Applicant/sponsor name:
Town of Queensburv
Signature:___________

Date:
February 8. 2016

A-39
ENDNOTE:
1. The sewer route will closely follow the road ROW
and will largely be confined to previously disturbed
areas associated with the roadway. Site evaluations
will be performed to confirm the presence/absence of
the noted resources. In the event any sensitive re­
source is identified, the project will incorporate design
and construction measures to avoid any impacts. These
measures may include routing to avoid the resource,
directional drilling/other low impact construction
methods. The project will comply with state/federal
permit requirements as necessary.

A-40
APPENDIX G
Short Environmental Assessment Form
Part 2 - Impact Assessment
Part 2 is to be completed by the Lead Agency.
Answer all of the following questions in Part 2 using
the information contained in Part 1 and other materi­
als submitted by the project sponsor or otherwise
available to the reviewer. When answering the ques­
tions the reviewer should be guided by the concept
“Have my responses been reasonable considering the
scale and context of the proposed action?”
No, or Moderate
small im­ to large
pact may impact
occur may occur
1.

2.

3.

4.

Will the proposed action
create a material conflict
with an adopted land use
plan or zoning regulations?
Will the proposed action
result in a change in the
use or intensity of use of
land?
Will the proposed action
impair the character or
quality of the existing
community?
Will the proposed action
have an impact on the
environmental character­
istics that caused the

m

□

□
m

□

m

□

A-41

5.

6.

7.

8.

9.

establishment of a Critical
Environmental Area (CEA)?
Will the proposed action
result in an adverse change
in the existing level of
traffic or affect existing
infrastructure for mass
transit, biking or walkway?
Will the proposed action
cause an increase in the
use of energy and it fails
to incorporate reasonably
available energy conserva­
tion or renewable energy
opportunities?
Will the proposed action
impact existing:
a. public/private water
supplies?
b. public/private wastewater treatment utili­
ties?
Will the proposed action
impair the character or
quality of important historic,
archaeological, architectural
or aesthetic resources?
Will the proposed action
result in an adverse change
to natural resources (e.g.,
wetlands,
waterbodies,
groundwater, air quality,
flora and fauna)?

□

K

m

□

□

in

□
□

□

A-42
10. Will the proposed action
result in an increase in
the potential for erosion,
flooding or drainage prob­
lems?
11. Will the proposed action
create a hazard to envi­
ronmental resources or
human health?

□

□

A-43
APPENDIX H
Short Environmental Assessment Form
Part 3 Determination of Significance
For every question in Part 2 that was answered “mod­
erate to large impact may occur”, or if there is a need
to explain why a particular element of the proposed ac­
tion may or will not result in a significant adverse en­
vironmental impact, please complete Part 3. Part 3
should, in sufficient detail, identify the impact, includ­
ing any measures or design elements that have been
included by the project sponsor to avoid or reduce im­
pacts. Part 3 should also explain how the lead agency
determined that the impact may or will not be signifi­
cant. Each potential impact should be assessed consid­
ering its setting, probability of occurring, duration,
irreversibility, geographic scope and magnitude. Also
consider the potential for short-term, long-term and
cumulative impacts.
The availability of public sewer will likely lead to the
development of vacant lands and as well as more in­
tense use of currently developed lands. Additional de­
velopment could result in additional traffic which is
indefinite at this time. SEQRA for future projects will
have to address the specific impacts. While this -impact
is considered “moderate", the development which may
occur would be consistent with the Town’s Zoning Code
and the Town’s planning initiatives. The proposed ac­
tion is not considered to result in any significant ad­
verse impacts.

A-44
□

Check this box if you have determined, based on
the information and analysis above, and any sup­
porting documentation, that the proposed action
may result in one or more potentially large or sig­
nificant adverse impacts and an environmental
impact statement is required.

m

Check this box if you have determined, based on
the information and analysis above, and any sup­
porting documentation, that the proposed action
will not result in any significant adverse environ­
mental impacts.
Queensburv Town Board

John F. Strough________
Print or Type Name of
Responsible Officer
in Lead Agency
/s/ John F. Strough______
Signature of Responsible
Officer in Lead Agency

September 12, 2016
Date
Town Supervisor
Title of Responsible
Officer
Signature of Preparer
(if different from
Responsible Officer)

A-45
APPENDIX I
Robert L. Schulz
2458 Ridge Road
Queensbury, NY 12804
October 17, 2016
John Strough, Supervisor
and Members of the
Queensbury Town Board
742 Bay Road
Queensbury, NY 12804
Attn: Caroline Barber, Town Clerk
Re: Petition for Redress of Grievances Regarding
The Proposed Carey Road Sanitary Sewer District
Dear Mr. Strough;
With reference to Resolution 3.8 on the Agenda for to­
night’s Town Board meeting I petition for redress of the
following grievances:
1.

Alternatives to the system proposed for man­
aging wastewater from the Carey Road Sani­
tary Sewer District have not been reviewed,
an apparent violation of the State Environ­
mental Quality Review Act (“SEQRA”). There
are at least two alternatives that have not
been reviewed. SEQRA does require the envi­
ronmental impacts of each alternative be
quantified and compared and that the alter­
native with the least adverse impact on the
environment must be chosen, with economics
taken into consideration.

2.

The Carey Road Sewer District, as proposed
would transfer its waste water to a Glens

A-46
Falls combined storm water and wastewater
line and from there to the Glens Falls
Wastewater Treatment Plant, which does not
now have and would not have the capacity to
treat the additional wastewater. It is common
knowledge that up to 20 times per year, dur­
ing periods of rainfall, valves are opened at
the Glens Falls Plant to bypass to the Hudson
River the flow of large volumes of raw sewer­
age, oil, toxic industrial chemicals and other
matter normally found in sewers.
I ask that the Board responsively respond to this Peti­
tion for Redress and that it do so before committing
any addition taxpayer funds to the wastewater man­
agement system currently proposed for Carey Road.
Respectfully submitted,
/s/ Robert L. Schulz
Robert L. Schulz
Cc: The Glens Falls Post Star

A-47
APPENDIX J
Robert L. Schulz
2458 Ridge Road
Queensbury, NY 12804
June 4, 2018
John Strough, Supervisor
and Members of the
Queensbury Town Board
742 Bay Road
Queensbury, NY 12804
Attn: Caroline Barber, Town Clerk
Re: Petition for Redress of Grievances Regarding
The Proposed Carey Road Sanitary Sewer District
Dear Mr. Strough and members of the Town Board;
In October of 2016. I served each member of the
Town Board with a proper, First Amendment Petition
for Redress (copy attached) to remedy a grievance re­
garding the Board’s violation of our Rule of Law.
Certain, reasonable alternatives to the system
proposed for managing wastewater from the Carey
Road Sanitary Sewer District have not been reviewed,
a violation of the State Environmental Quality Review
Act (“SEQRA”).
The Carey Road Sewer District, would transfer its
wastewater to a Glens Falls combined storm water and
wastewater line and from there to the Glens Falls
Wastewater Treatment Plant, which does not now have
and would not have the capacity to treat the additional
wastewater, thus requiring periodic bypass to the

A-48
Hudson River of large volumes of raw sewerage, oil,
toxic industrial chemicals and other matter normally
found in sewers.
There were and remain at least two alternatives
that have not been reviewed: a packaged treatment
plant discharging wholly within the District and the
“no action” alternative.
The State Environmental Quality Review Act re­
quires the environmental impacts of each alternative
be quantified and compared and that the alternative
with the least adverse impact on the environment
must be chosen, with the economy taken into consider­
ation.1
The 2016 Petition for Redress required a response
before the Town Board committed any addition tax­
payer funds to the wastewater management system
proposed for Carey Road.
To be sure, a communication designated as a Peti­
tion for Redress requiring a formal, specific response
from the government, would have to embody certain
components to ensure that the document was a First
Amendment petition and not a “pretended petition.”
Not all communications, nor just any document, can be
1 On information and belief, the Town’s violation of SEQRA
has been compounded since 2016. The boundaries of the district
have changed with the elimination of Halcyon Properties, Inc.,
the addition of eight residential lots on Stevens Road and the pro­
posed consolidation of the Carey Road Sanitary Sewer District
with the West Queensbury Sanitary Sewer District, further nul­
lifying the Town’s 2016 Environmental Impact Statement (“EIS”).

A-49
regarded as a constitutionally protected Petition for
Redress of Grievances.
The subject Petition for Redress exceeds any ra­
tional standard requiring a formal, specific response
from the Town Board: it is serious and documented, not
frivolous; it contains no falsehoods; it is not absent
probable cause; it has the necessary quality of a dis­
pute; it comes from a citizen outside of the formal po­
litical culture and involves a legal principle not
political talk; it is punctilious and dignified, containing
both a “direction” and a “prayer” for relief; it addresses
a public, collective grievance with widespread partici­
pation and consequences; it is an instrument of delib­
eration not agitation; and, it provides legal Notice
seeking substantive Redress to cure the infringement
of a right leading to civil legal liability.
By failing to respond to the First Amendment Pe­
tition for Redress, and continuing to advance the Carey
Road Sanitary Sewer District without a legal and
proper Environmental Impact Statement, the Town is
outside the boundaries drawn around its power and
subject to being held accountable by its taxpayers.
Please provide the rightful response on or before
June 11, 2018. Sincerely yours,
Sincerely yours,
/s/ Robert L. Schulz
Robert L. Schulz
Cc: The Glens Falls Post Star

A-50
APPENDIX K
Historical Record Of The Right To Petition
Government For Redress Of Grievances
Plaintiff’s interpretation of the meaning of the Petition
Clause of the First Amendment is strongly supported
by all of history, from the English Magna Carta to the
American Declaration of Independence and beyond.
There is absolutely nothing in American History or Ju­
risprudence that contradicts Plaintiff’s interpretation.
The following are the highlights.
Chapter 61 of the Magna Carta (the cradle of Liberty
and Freedom from wrongful government, signed at a
time when King John was sovereign) reads in relevant
part:
“61. Since, moreover, for God and the amend­
ment of our kingdom and for the better allay­
ing of the quarrel that has arisen between us
and our barons, we have granted all these con­
cessions, desirous that they should enjoy them
in complete and firm endurance forever, we
give and grant to them the underwritten se­
curity, namely, that the barons choose five and
twenty barons of the kingdom, whomsoever
they will, who shall be bound with all their
might, to observe and hold, and cause to
be observed, the peace and liberties we
have granted and confirmed to them by
this our present Charter, so that if we, or
our justiciar, or our bailiffs or any one of our
officers, shall in anything be at fault towards
anyone, or shall have broken any one of

A-51
the articles of this peace or of this secu­
rity, and the offense be notified to four barons
of the foresaid five and twenty, the said four
barons shall repair to us (or our justiciar, if we
are out of the realm) and, laying the trans­
gression before us, petition to have that
transgression redressed without delay.
And if we shall not have corrected the trans­
gression (or, in the event of our being out of
the realm, if our justiciar shall not have cor­
rected it) within forty days, reckoning from
the time it has been intimated to us (or to our
justiciar, if we should be out of the realm), the
four barons aforesaid shall refer that matter
to the rest of the five and twenty barons, and
those five and twenty barons shall, together
with the community of the whole realm,
distrain and distress us in all possible ways,
namely, by seizing our castles, lands, pos­
sessions, and in any other way they can,
until redress has heen obtained as they
deem fit, saving harmless our own person,
and the persons of our queen and children;
and when redress has been obtained,
they shall resume their old relations to­
wards us....” (emphasis added by Plain­
tiffs).
Chapter 61 was a procedural vehicle for enforcing the
rest of the Charter. It spells out the Rights of the Peo­
ple and the obligations of the Government, and the pro­
cedural steps to be taken by the People and the King,
in the event of a violation by the King of any provision
of that Charter: the People were to transmit a Petition
for a Redress of their Grievances; the King had 40 days

A-52
to respond; if the King failed to respond in 40 days, the
People could non-violently retain their money or vio­
lence could be legally employed against the King until
he Redressed the alleged Grievances.1
The 1689 Declaration of Rights proclaimed, “[I]t is the
Right of the subjects to petition the King, and all com­
mitments and prosecutions for such petitioning is ille­
gal.” This was obviously a basis of the “shall make no
law abridging the right to petition government for a
redress of grievances” provision of our Bill of Rights.
In 1774, the same Congress that adopted the Declara­
tion of Independence unanimously adopted an Act in
which they gave meaning to the People’s Right to Peti­
tion for Redress of Grievances and the Right of enforce­
ment as they spoke about the People’s “Great Rights.”
Quoting:
“If money is wanted by rulers who have in any
manner oppressed the People, they may re­
tain it until their grievances are redressed,
and thus peaceably procure relief, without
trusting to despised petitions or disturbing
the public tranquility.” “Continental Congress
To The Inhabitants Of The Province Of Que­
bec.” Journals of the Continental Congress
1774, Journals 1:105-13.
In 1775, just prior to drafting the Declaration of Inde­
pendence, Jefferson gave further meaning to the

1 See Magna Carta Chapter 61. See also William Sharp
McKechnie, Magna Carta 468-77 (2nd ed. 1914)

A-53
People’s Right to Petition for Redress of Grievances
and the Right of enforcement. Quoting:
“The privilege of giving or withholding our
moneys is an important barrier against the
undue exertion of prerogative which if left al­
together without control may be exercised to
our great oppression; and all history shows
how efficacious its intercession for redress of
grievances and reestablishment of rights, an
how improvident would be the surrender of so
powerful a mediator.” Thomas Jefferson: Re­
ply to Lord North, 1775. Papers 1:225.
In 1776, the Declaration of Independence was adopted
by the Continental Congress. The bulk of the document
is a listing of the Grievances the People had against a
Government that had been in place for 150 years. The
final Grievance on the list is referred to by scholars as
the “capstone” Grievance. The capstone Grievance was
the ultimate Grievance, the Grievance that prevented
Redress of these other Grievances, the Grievance that
caused the People to non-violently withdraw their sup­
port and allegiance to the Government, and the Griev­
ance that eventually justified War against the King,
morally and legally. The Congress gave further mean­
ing to the People’s Right to Petition for Redress of
Grievances and the Right of enforcement. Quoting the
Capstone Grievance:
“In every stage of these Oppressions We have
Petitioned for Redress in the most humble
terms. Our repeated Petitions have been
answered only with repeated injury. A
Prince, whose character is thus marked by

A-54
every act which may define a Tyrant, is thus
unfit to be the ruler of a free people. . . . We,
therefore . . . declare, That these United Colo­
nies . . . are Absolved from all Allegiance to
the British Crown. . ..” Declaration ofInde­
pendence, 1776
“It cannot be presumed, that any clause in the Consti­
tution is intended to be without effect.” Chief Justice
Marshall in. Marbury v. Madison, 5 U.S. (1 Cranch) 139
(1803)
“On every question of the construction of the Constitu­
tion, let us carry ourselves back to the time when the
Constitution was adopted, recollect the spirit mani­
fested in the debates, and instead of trying what mean­
ing may be squeezed out of the text, or invented
against it, conform to the probable one in which it was
passed.” Thomas Jefferson, Letter to William Johnson,
Supreme Court Justice (1823)
From Carter v. Carter Coal Co., 298 U.S. 238 (1936):
“And the Constitution itself is in every real
sense a law-the lawmakers being the people
themselves, in whom under our system all
political power and sovereignty primarily re­
sides, and through whom such power and
sovereignty primarily speaks. It is by that
law, and not otherwise, that the legislative,
executive, and judicial agencies which it cre­
ated exercise such political authority as they
have been permitted to possess. The Consti­
tution speaks for itself in terms so plain
that to misunderstand their import is not

A-55
rationally possible. ‘We the People of the
United States,’ it says, ‘do ordain and estab­
lish this Constitution.’ Ordain and establish!
These are definite words of enactment, and
without more would stamp what follows with
the dignity and character of law. The framers
of the Constitution, however, were not content
to let the matter rest here, but provided explicitly-‘This Constitution, and the Laws of
the United States which shall be made in Pur­
suance thereof; . . . shall be the supreme Law
of the Land.’ (Const, art. 6, cl. 2.) The suprem­
acy of the Constitution as law is thus declared
without qualification. That supremacy is ab­
solute; the supremacy of a statute enacted by
Congress is not absolute but conditioned upon
its being made in pursuance of the Constitu­
tion. And a judicial tribunal, clothed by that
instrument with complete judicial power, and,
therefore, by the very nature of the power, re­
quired to ascertain and apply the law to the
facts in every case or proceeding properly
brought for adjudication, must apply the su­
preme law and reject the inferior statute [298
U.S. 238. 297] whenever the two conflict. In
the discharge of that duty, the opinion of the
lawmakers that a statute passed by them is
valid must be given great weight, Adkins u.
Children’s Hospital, 261 U.S. 525. 544. 43
S.Ct. 394,24 A.L.R. 1238; but their opinion, or
the court’s opinion, that the statute will prove
greatly or generally beneficial is wholly irrel­
evant to the inquiry. Schechter Poultry Corp. v.
United States, 295 U.S. 495. 549. 550 S., 55
S.Ct. 837, 97 A.L.R. 947.”

A-56
And from Hamilton, Federalist No. 78:
“There is no position which depends on clearer
principles, than that every act of a delegated
authority, contrary to the tenor of the commis­
sion under which it is exercised, is void. No
legislative act, therefore, contrary to the Con­
stitution, can be valid. To deny this, would be
to affirm, that the deputy is greater than his
principal; that the servant is above his mas­
ter; that the representatives of the people are
superior to the people themselves; that men
acting by virtue of powers, may do not only
what their powers do not authorize, but what
they forbid.
“If it be said that the legislative body are
themselves the constitutional judges of their
own powers, and that the construction they
put upon them is conclusive upon the other
departments, it may be answered, that this
cannot be the natural presumption, where it
is not to be collected from any particular pro­
visions in the Constitution. It is not otherwise
to be supposed, that the Constitution could in­
tend to enable the representatives of the peo­
ple to substitute their WILL to that of their
constituents. It is far more rational to sup­
pose, that the courts were designed to be an
intermediate body between the people and the
legislature, in order, among other things, to
keep the latter within the limits assigned to
their authority. The interpretation of the laws
is the proper and peculiar province of the
courts. A constitution is, in fact, and must be
regarded by the judges, as a fundamental

A-57
law. It therefore belongs to them to ascertain
its meaning, as well as the meaning of any
particular act proceeding from the legisla­
tive body. If there should happen to be an ir­
reconcilable variance between the two, that
which has the superior obligation and validity
ought, of course, to be preferred; or, in other
words, the Constitution ought to be preferred
to the statute, the intention of the people to
the intention of their agents.
“Nor does this conclusion by any means sup­
pose a superiority of the judicial to the legis­
lative power. It only supposes that the power
of the people is superior to both; and that
where the will of the legislature, declared in
its statutes, stands in opposition to that of the
people, declared in the Constitution, the
judges ought to be governed by the latter ra­
ther than the former. They ought to regulate
their decisions by the fundamental laws, ra­
ther than by those which are not fundamen­
tal.”
Though the Rights to Popular Sovereignty and its “pro­
tector” Right, the Right of Petition for Redress have be­
come somewhat forgotten, they took shape early on by
Government’s response to Petitions for Redress of
Grievances.2 The Right is not changed by the fact that
2 See A SHORT HISTORY OF THE RIGHT TO PETITION
GOVERNMENT FOR REDRESS OF GRIEVANCES, Stephen A.
Higginson, 96 Yale L.J. 142(November, 1986); “SHALL MAKE
NO LAW ABRIDGING ...
AN ANALYSIS OF THE NE­
GLECTED, BUT NEARLY ABSOLUTE, RIGHT OF PETITION,
Norman B. Smith, 54 U. Cin. L. Rev. 1153 (1986); “LIBELOUS”

A-58
the Petition Clause lacks an affirmative statement
that Government shall respond to Petitions for, “It can­
not be presumed, that any clause in the Constitution
is intended to be without effect.” Chief Justice Mar­
shall in Marbury v. Madison. 5 U.S. (1 Cranch) 139
(1803). For instance, the 26th Amendment guarantees
all citizens above the age of 18 the Right to Vote, it does
not contain an affirmative statement that the Govern­
ment shall count the votes.
The Right to Petition is a distinctive, substantive
Right, from which other First Amendment Rights were
derived. The Rights to free speech, press and assem­
bly originated as derivative Rights insofar as they
were necessary to protect the preexisting Right to
Petition. Petitioning, as a way to hold Government
PETITIONS FOR REDRESS OF GRIEVANCES - BAD HISTO­
RIOGRAPHY MAKES WORSE LAW, Eric Schnapper, 74 Iowa L.
Rev. 303 (January 1989); THE BILL OF RIGHTS AS A CONSTI­
TUTION, Akhil Reed Amar, 100 Yale L.J. 1131 (March, 1991);
NOTE: A PETITION CLAUSE ANALYSIS OF SUITS AGAINST
THE GOVERNMENT: IMPLICATIONS FOR RULE 11 SANC­
TIONS, 106 Harv. L. Rev. 1111 (MARCH, 1993); SOVEREIGN
IMMUNITY AND THE RIGHT TO PETITION: TOWARD A
FIRST AMENDMENT RIGHT TO PURSUE JUDICIAL CLAIMS
AGAINST THE GOVERNMENT, James E. Pfander, 91 Nw. U.L.
Rev. 899 (Spring 1997);THE VESTIGIAL CONSTITUTION:
THE HISTORY AND SIGNIFICANCE OF THE RIGHT TO PE­
TITION, Gregory A. Mark, 66 Fordham L. Rev. 2153 (May, 1998);
DOWNSIZING THE RIGHT TO PETITION, Gary Lawson and
Guy Seidman, 93 Nw. U.L. Rev. 739 (Spring 1999); A RIGHT OF
ACCESS TO COURT UNDER THE PETITION CLAUSE OF
THE FIRST AMENDMENT: DEFINING THE RIGHT, Carol Rice
Andrews, 60 Ohio St. L.J. 557 (1999); MOTIVE RESTRICTIONS
ON COURT ACCESS: A FIRST AMENDMENT CHALLENGE,
Carol Rice Andrews, 61 Ohio St. L.J. 665 (2000).

A-59
accountable to natural Rights, originated in England
in the 11th century3 and gained recognition as a Right
in the mid 17th century.4 Free speech Rights first de­
veloped because members of Parliament needed to dis­
cuss freely the Petitions they received.5 Publications
reporting Petitions were the first to receive protection
from the frequent prosecutions against the press for
seditious libel.6 Public meetings to prepare Petitions
led to the Right of Public Assembly.7
The Right to Petition was widely accorded greater im­
portance than the Rights of free expression. For in­
stance, in the 18th century, the House of Commons, 8
the American Colonies,9 and the first Continental
3 Norman B. Smith, “Shall Make No Law Abridging . . . “:
Analysis of the Neglected, But Nearly Absolute, Right of Petition,
54 U. CIN. L. REV. 1153, at 1154.
4 See Bill of Rights, 1689, 1 W & M., ch. 2 Sections 5,13
(Eng.), reprinted in 5 THE FOUNDERS’ CONSTITUTION 197
(Philip B. Kurland & Ralph Lerner eds., 1987); 1 WILLIAM
BLACKSTONE, COMMENTARIES 138-39.
5 See David C. Frederick, John Quincy Adams, Slavery, and
the Disappearance of the Right to Petition, 9 LAW & HIST. REV.
113, at 115.
6 See Smith, supra n.3, at 1165-67.
7 See Charles E. Rice, Freedom of Petition, in 2 ENCYCLO­
PEDIA OF THE AMERICAN CONSTITUTION 789, (Leonard W.
Levy ed., 1986)
8 See Smith, supra n.3, at 1165.
9 For example, Massachusetts secured the Right to Petition
in its Body of Liberties in 1641, but freedom of speech and press
did not appear in the official documents until the mid-1700s. See
David A. Anderson, The Origins of the Press Clause, 30 UCLA L.
REV. 455, 463 n.47 (1983).

A-60
Congress10 gave official recognition to the Right to Pe­
tition, but not to the Rights of Free Speech or of the
Press.11
The historical record shows that the Framers and Ratifiers of the First Amendment also understood the Pe­
tition Right as distinct from the Rights of free
expression. In his original proposed draft of the Bill of
Rights, Madison listed the Right to Petition and the
Rights to speech and press in two separate sections.12
In addition, a “considerable majority” of Congress de­
feated a motion to strike the assembly provision from
the First Amendment because of the understanding
that all of the rights in the First Amendment were sep­
arate Rights that should be specifically protected.13
Petitioning Government for Redress has played a key
role in the development and enforcement of popular
sovereignty throughout British and American his­
tory.14 In medieval England, petitioning began as a way
10 See id. at 464 n.52.
11 Even when England and the American colonies recognized
free speech Rights, petition Rights encompassed freedom from
punishment for petitioning, whereas free speech Rights extended
to freedom from prior restraints. See Frederick, supra n.5, at 11516.
12 See New York Times Co. v. U.S.. 403 U.S. 670, 716 n.2
(1971) (Black, J., concurring). For the full text of Madison’s pro­
posal, see 1 ANNALS OF CONG. 434 (Joseph Gales ed., 1834).
13 See 5 BERNARD SCHWARTZ, THE ROOTS OF THE
BILL OF RIGHTS at 1089-91 (1980).
14 See Don L. Smith, The Right to Petition for Redress of
Grievances: Constitutional Development and Interpretations 10108 (1971) (unpublished Ph.D. dissertation) (Univ. Microforms

A-61
for barons to inform the King of their concerns and to
influence his actions.15 Later, in the 17th century, Par­
liament gained the Right to Petition the King.16 This
broadening of participation culminated in the official
recognition of the right of Petition in the People them­
selves.17
The People used this newfound Right to question the
legality of the Government’s actions,18 to present their
views on controversial matters,19 and to demand that
the Government, as the creature and servant of
the People, he responsive to the popular will.20
Int’l); K. Smellie, Right to Petition, in 12 ENCYCLOPEDIA OF
THE SOCIAL SCIENCES 98, 98-101 (R.A. Seiligman ed., 1934).
15 The Magna Carta of 1215 guaranteed this Right. See
MAGNA CARTA, ch. 61, reprinted in 5 THE FOUNDERS’ CON­
STITUTION, supra n.4, at 187.
16 See PETITION OF RIGHT chs. 1, 7 (Eng. June 7, 1628),
reprinted in 5 THE FOUNDERS’ CONSTITUTION, supra n.4 at
187-88.
17 In 1669, the House of Commons stated that, “it is an in­
herent right of every commoner in England to prepare and pre­
sent Petitions to the House of Commons in case of grievances, and
the House of Commons to receive the same.” Resolution of the
House of Commons (1669), reprinted in 5 THE FOUNDERS’
CONSTITUTION, supra n.4 at 188-89.
18 For example, in 1688, a group of bishops sent a petition to
James II that accused him of acting illegally. See Smith, supra
n.3, at 1160-62. James II’s attempt to punish the bishops for this
Petition led to the Glorious Revolution and to the enactment of
the Bill of Rights. See Smith, supra n.14 at 41-43.
19 See Smith, supra n.3, at 1165 (describing a Petition re­
garding contested parliamentary elections).
20 In 1701, Daniel Defoe sent a Petition to the House of
Commons that accused the House of acting illegally when it

A-62
In the American colonies, disenfranchised groups used
Petitions to seek government accountability for their
concerns and to rectify Government misconduct.21 By
the nineteenth century, Petitioning was de­
scribed as “essential to ... a free government, 9922
an inherent feature of a republic23 and a means
of enhancing Government accountability through
the participation of citizens.
Government accountability was understood to
include response to petitions.24 American colo­
nists, who exercised their Right to Petition the
King or Parliament,25 expected the Government
incarcerated some previous petitioners. In response to Defoe’s de­
mand for action, the House released those Petitioners. See Smith,
supra n.3, at 1163-64.
21 See RAYMOND BAILEY, POPULAR INFLUENCE
UPON PUBLIC POLICY: PETITIONING IN EIGHTEENTHCENTURY VIRGINIA 43-44 (1979).
22 THOMAS M. COOLEY, TREATISE ON THE CONSTITU­
TIONAL LIMITATIONS WHICH REST UPON THE LEGISLA­
TIVE POWER OF THE STATES OF THE AMERICAN UNION
531 (6th ed. 1890).
23 See CONG. GLOBE, 39th Cong., 15 Session. 1293 (1866)
(statement of Rep. Shellabarger) (declaring petitioning an indis­
pensable Right “without which there is no citizenship” in any
government); JOSEPH STORY, COMMENTARIES ON THE
CONSTITUTION OF THE UNITED STATES 707 (Carolina Aca­
demic Press ed. 1987) (1833) (explaining that the Petition Right
“results from [the] very nature of the structure [of a republican
government]”).
24 See Frederick, supra n.5 at 114-15 (describing the histor­
ical development of the duty of government response to Peti­
tions).
25 See DECLARATION AND RESOLVES OF THE CONTI­
NENTAL CONGRESS 3 (Am. Col. Oct. 14, 1774), reprinted in 5

A-63
to receive and respond to their Petitions.26 The
King’s persistent refusal to answer the colonists’
grievances outraged the colonists and as the
“capstone” grievance, was a significant factor
that led to the American Revolution.27
Frustration with the British Government led the
Framers to consider incorporating a people’s right to
“instruct their Representatives” in the First Amend­
ment.28 Members of the First Congress easily defeated
this right-of-instruction proposal.29 Some discretion to
reject petitions that “instructed government,” they rea­
soned, would not undermine Government accountabil­
ity to the People, as long as Congress had a duty to
consider petitions and fully respond to them.™

THE FOUNDERS’ CONSTITUTION, supra n.4 at 199; DECLA­
RATION OF RIGHTS OF THE STAMP ACT CONGRESS 13
(Am. Col. Oct. 19, 1765), reprinted in id. at 198.
26 See Frederick, supra n,5 at 115-116.
27 See THE DECLARATION OF INDEPENDENCE para. 30
(U.S. July 4, 1776), reprinted in 5 THE FOUNDERS’ CONSTI­
TUTION, supra n.4 at 199; Lee A. Strimbeck, The Right to Peti­
tion, 55 W. VA. L. REV. 275, 277 (1954).
28 See 5 BERNARD SCHWARTZ, supra n.13, 1091-105.
29 The vote was 10-41 in the House and 2-14 in the Senate.
See id. at 1105, 1148.
30 See 1 ANNALS OF CONG. 733-46 (Joseph Gales ed„
1789); 5 BERNARD SCHWARTZ, supra n.13, at 1093-94 (stating
that representatives have a duty to inquire into the suggested
measures contained in citizens’ Petitions) (statement of Rep.
Roger Sherman); id. at 1095-96 (stating that Congress can never
shut its ears to Petitions) (statement of Rep. Elbridge Gerry); id.
at 1096 (arguing that the Right to Petition protects the Right to

A-64
Congress viewed the receipt and serious consideration
of every Petition as an important part of its duties.31
Congress referred Petitions to committees32 and even
created committees to deal with particular types of
Petitions.33 Ultimately, most Petitions resulted in ei­
ther favorable legislation or an adverse committee re­
port.34 Thus, throughout early Anglo-American history,
general petitioning (as opposed to judicial petitioning)
allowed the people a means of direct political partici­
pation that in turn demanded government response
and promoted accountability.

bring nonbinding instructions to Congress’s attention) (statement
of Rep. James Madison).
31 See STAFF OF HOUSE COMM. ON ENERGY AND COM­
MERCE, 99TH CONG., 2D SESS., PETITIONS, MEMORIALS
AND OTHER DOCUMENTS SUBMITTED FOR THE CONSID­
ERATION OF CONGRESS, MARCH 4,1789 TO DECEMBER 15,
1975, at 6-9 (Comm. Print 1986) (including a comment by the
press that “the principal part of Congress’s time has been taken
up in the reading and referring Petitions” (quot. omitted)).
32 See Stephen A. Higginson, Note, A Short History of the
Right to Petition the Government for the Redress of Grievances, 96
YALE L. J. 142, at 156.
33
See H.J., 25th Cong., 2d Sess. 647 (1838) (describing how
petitions prompted the appointment of a select committee to con­
sider legislation to abolish dueling).
34 See Higginson, n.32 at 157.

